1a
Joint Exhibit A
Submitted at hearing on
August 24, 2011
STAPLES, INC.

*

v.

*

COMPTROLLER OF
THE TREASURY

*

STAPLES THE OFFICE
*
SUPERSTORE, INC.
v.
COMPTROLLER OF
THE TREASURY

IN THE
MARYLAND
TAX COURT
301 W. Preston St.,
Suite 1513
Baltimore,
Maryland 21201
John T. Hearn, Clerk

* M.T.C. No. 09-IN-OO-0148
M.T.C. No. 09-IN-OO-0149
*

STIPULATION OF FACTS
(Filed Aug. 23, 2011)
Petitioners, Staples, Inc. (“Staples”) and Staples
The Office Superstore, Inc. (“Superstore”), and Respondent, the Comptroller of the Treasury (“Comptroller”), hereby stipulate and agree that the following
facts are true and correct for purposes of this proceeding.
Unless otherwise noted, the parties agree that
each of the following facts pertain in whole or in part
to the “Years in Issue” as that phrase is defined in paragraph 1 herein.

2a
PROCEDURAL FACTS
1.

The Comptroller issued a Notice of Assessment to
Superstore, dated January 28, 2008, for fiscal
years ended January 30, 1999, January 29, 2000,
February 3, 2001, February 2, 2002, February 1,
2003 and January 31, 2004 (the “Years in Issue”).
The Comptroller issued a Notice of Assessment to
Staples, dated January 28, 2008, for the Years in
Issue. (The Notices of Assessment issued to Superstore and Staples are collectively referred to
as the “Notices.”)

2.

Superstore and Staples timely requested an informal hearing on the Notices. The hearing was
held on June 6, 2008.

3.

The Comptroller issued a Notice of Final Determination to Superstore for the Years in Issue,
dated January 26, 2009. The Comptroller issued
a Notice of Final Determination to Staples for the
Years in Issue, dated January 26, 2009. (The Notices of Final Determination issued to Superstore
and Staples are collectively referred to as the “Final Determinations.”)

4.

The Final Determinations asserted tax, interest
and penalties due as follows:

For Superstore:
Fiscal
Tax
Interest Penalty
Total
Year
End
January $ 957,358 $ 1,218,977 $ 239,340 $ 2,415,675
30, 1999
January $ 1,085,745 $ 1,240,917 $ 271,436 $ 2,598,098
29, 2000

3a
February $ 1,105,337 $ 1,120,011
3, 2001
February $ 1,011,386 $ 893,334
2, 2002
February $ 1,046,114 $ 788,015
1, 2003
January $ 1,134,895 $ 706,953
31, 2004
Total
$ 6,340,835 $ 5,968,207

$ 276,334 $ 2,501,682
$ 252,847 $ 2,157,567
$ 261,529 $ 2,095,658
$ 283,724 $ 2,215,572
$ 1,585,210$13,894,252

For Staples:
Fiscal Year
End
January 30,
1999
January 29,
2000
February 3,
2001
February 2,
2002
February 1,
2003
January 31,
2004
Total
5.

Tax

Interest Penalty

Total

$ 55,949 $ 71,238 $ 13,987 $141,174
$ 50,469 $ 57,682 $ 12,617 $102,768
$ 63,794 $ 64,641 $ 15,949 $144,384
$ 42,125 $ 37,208 $ 10,531 $ 89,864
$

547 $

412 $

137 $

1,096

$

441 $

275 $

110 $

826

$213,325 $231,456 $ 53,331 $498,112

Superstore and Staples appealed the Final Determinations on February 20, 2009 by each filing a
Petition of Appeal. (The Petitions of Appeal filed
by Staples and Superstore are collectively referred to as the “Petitions.”)

4a
6.

Each of the Petitions are appeals pursuant to
Section 13-510 of the Tax-General Article from
the Final Determinations asserting corporate income tax, and related interest and penalties, assessed against Superstore and Staples for the
Years in Issue.

7.

The Comptroller filed his Answer to Superstore’s
Petition of Appeal on March 20, 2009. The Comptroller filed his Answer to Staples’ Petition of Appeal on March 20, 2009.

8.

Superstore and Staples filed a Motion to Consolidate the cases on April 16, 2009. The Motion to
Consolidate was granted and the cases were consolidated on May 12, 2009.

9.

During the course of discovery in this matter, Petitioners discovered that employees of both Superstore and Staples made visits to Staples The
Office Superstore East, Inc. (“Staples East”) and
Staples Contract and Commercial, Inc. (“Staples
C&C”) locations in Maryland.

10.

This discovery led to the filing of amended Petitions of Appeal by Superstore and Staples on
June 1, 2010, wherein Superstore and Staples admitted that they were subject to the Maryland
corporate income tax. (The amended Petitions of
Appeal filed by Superstore and Staples are collectively referred to as the “Amended Petitions.”)

11.

The Comptroller filed his Answer to Superstore’s
Amended Petition of Appeal on June 10, 2010.
The Comptroller filed his Answer to Staples’
Amended Petition of Appeal on June 10, 2010.

5a
AUDIT
12.

Staples East timely filed Maryland corporate income tax returns (Form 500) for the Years in Issue.

13.

Staples C&C timely filed Maryland corporate income tax returns (Form 500) for the Years in Issue.

14.

Neither Superstore nor Staples initially filed
Maryland corporate income tax returns for the
Years in Issue as it was believed by the Petitioners that neither Superstore nor Staples had the
requisite contacts with Maryland that would require that returns be filed. Superstore and Staples filed Maryland corporate income tax returns
for the Years in Issue in August 2011.

15.

The Notices emanated from an audit of Staples
East and Staples C&C that were engaged in business in Maryland.
Calculation of Tax Due

16.

For the Years in Issue, pursuant to the audit
narrative, the auditors assessed Superstore by
starting with Superstore’s total franchise fee receipts received from both Staples East and Staples C&C. Then the auditor determined the
percentage of the total franchise fee receipts that
were attributable to Staples East and the percentage of the total franchise fee receipts that
were attributable to Staples C&C. Next, the
auditor (1) multiplied the percentage of franchise fee receipts received from Staples East by
Staples East’s Maryland apportionment factor as

6a
reported by Staples East on its Maryland income
tax return, and (2) multiplied the percentage of
franchise fee receipts received from Staples C&C
by Staples C&C’s Maryland apportionment factor as reported by Staples C&C on its Maryland
income tax return. These two apportionment factors were added together to arrive at a blended
apportionment factor. This blended apportionment factor was then multiplied by the total franchise fee receipts received from both Staples East
and Staples C&C to determine Superstore’s purported Maryland taxable income.
17.

For the fiscal years ended January 30, 1999
through February 1, 2003, pursuant to the audit
narrative, the auditors assessed Staples by first
netting the interest income received from and/or
paid by Staples East and Staples C&C to Staples
(the “Net Interest Income”).1 Then the auditor determined the percentage of the Net Interest Income that was attributable to Staples East and
the percentage of the Net Interest Income that
was attributable to Staples C&C. Next, the auditor (1) multiplied the percentage of Net Interest
Income received from or paid by Staples East by
Staples East’s Maryland apportionment factor as
reported by Staples East on its Maryland income
tax return, and (2) multiplied the percentage of
1

For fiscal years ended January 30, 1999 through February
3, 2001, Staples East paid interest to Staples and Staples paid
interest to Staples C&C. For fiscal years ended February 2, 2002,
both Staples East and Staples C&C paid interest to Staples. For
fiscal years ended February 1, 2003 and January 31, 2004, Staples C&C paid interest to Staples and Staples paid interest to
Staples East.

7a
Net Interest Income received from or paid by Staples C&C by Staples C&C’s Maryland apportionment factor as reported by Staples C&C on its
Maryland income tax return. These two apportionment factors were added together to arrive at
a blended apportionment factor. This blended apportionment factor was then multiplied by the
Net Interest Income to determine Staples’ purported Maryland taxable income.
18.

For the fiscal year ended January 31, 2004, pursuant to the audit narrative, the auditors assessed Staples by starting with the interest
income received from Staples C&C. The auditor
then multiplied the interest income received
from Staples C&C by Staples C&C’s Maryland
apportionment factor as reported by Staples C&C
on its Maryland income tax return to determine
Staples’ purported Maryland taxable income.

THE ORGANIZATION OF THE BUSINESSES
19.

Staples was incorporated on November 27, 1985.

20.

Staples was organized under the laws of Delaware.

21.

Prior to 1998, Staples’ principal place of business
and commercial domicile were in Westborough,
Massachusetts. During the Years in Issue, Staples’ principal place of business and commercial
domicile were in Framingham, Massachusetts.
From immediately prior to the reorganization
until all offices were consolidated in one building in Framingham in 1999, Staples’ offices were

8a
located in four different buildings, two in
Westborough and two in Framingham.
22.

During the period 1985 through 1997, Staples
was engaged in the sale of office supplies and
equipment. During the Years in Issue, Staples
was engaged in the sale of office supplies and
equipment through its subsidiaries.

23.

Staples pioneered the office supplies superstore
concept in 1986 with the opening of its first superstore in Brighton, Massachusetts.

24.

Staples experienced tremendous growth in its superstore operations from the time it opened the
first superstore in 1986 through February 1,
1997, when it had 557 superstores operating in
the United States and Canada.

25.

Staples also experienced tremendous growth in
its catalog sales and large customer sales.

26.

In April 1996, a representative of Staples contacted Office Depot, Inc. (“Office Depot”) with regard to a possible business combination involving
both Staples and Office Depot. Discussions continued between Staples and Office Depot
throughout the summer.

27.

On August 14, 1996, Staples met with representatives of Ernst & Young LLP (“EY”). Among the
items identified at this meeting to be acted upon
was a request by Staples to try to reduce its state
tax rate to zero for all separate return states. In
the EY memo, dated August 26, 1996, discussing
the action items from the meeting, there was no
mention of any discussions regarding a possible

9a
merger between Staples and any of its competitors.
28.

A joint public announcement of the merger was
made by Staples and Office Depot on the morning
of September 4, 1996.

29.

In December 1996 and January 1997, EY presented to Staples its State and Local Tax
(“SALT”) Value Analysis (“SVA”). Pursuant to a
draft internal correspondence, entitled “SALT
Value Analysis (‘SVA’),” the primary reasons this
analysis was undertaken was 1) that it had been
several years since EY had comprehensively reviewed Staples’ state tax position and 2) Staples’
planned merger with Office Depot. EY proposed
a plan that would create a “Super Passive Investment Company” to hold Staples’ intangibles, purchasing function, and possibly other assets and
services. This passive investment company would
charge the company (ies) housing the retail operations a fee for use of the intangibles, purchasing
and other services. The draft internal correspondence further provides for an estimated gross state
tax savings over a five year period of approximately $66.5 million under a combination of the
current plan and the new plan. No other savings
were identified by EY, nor did EY identify any
other goals that would be accomplished by implementing their proposed plan as this document
was a State and Local Tax Value Analysis. EY recommended the implementation of the plan regardless of whether there was a merger with
Office Depot or not.

10a
30.

The Staples SVA Project Charter states that the
“overall Staples SVA Project involves a corporate
restructuring of the Staples entities with a view
to achieving permanent recurring state tax savings through: strategic placement of assets and
people in unitary versus separate company entities; and income shifting from separate company
entities to unitary entities through imposition of
intercompany royalties and fees.” This EY document is marked “First draft. No client input.”

31.

With the assistance of EY, Staples considered
several alternative structures. The tax effects resulting from any change to the structure were reviewed by Staples.

32.

EY assisted in the restructuring.

33.

After months of consideration, Staples determined that the best structure involved four separate operating companies: Staples; Superstore;
Staples East; and Staples C&C. Of these four separate operating companies, Staples was the only
company operating prior to the restructuring. Superstore and Staples East, while incorporated,
were not capitalized or operating prior to the restructuring and Staples C&C was incorporated
as part of the restructuring.

34.

The merger with Office Depot was ultimately
abandoned in the summer of 1997 after the issuance of a federal district court decision granting
the Federal Trade Commission’s motion for an injunction and enjoining Staples from going forward with the acquisition of Office Depot pending
a final decision by the Federal Trade Commission

11a
as to whether the acquisition would substantially
lessen competition in violation of federal law.
35.

Even though the merger was abandoned, Staples
proceeded with the reorganization.

36.

The reorganization process was completed on
February 1, 1998.

37.

Prior to the implementation of the reorganization, Staples was the parent company that owned
and operated the retail stores and contract business. Staples Properties, Inc., (“Properties”), a
subsidiary of Staples, owned the rights in and the
goodwill associated with the use of certain valuable trademarks and other intellectual property,
which it licensed to Staples pursuant to a Trademarks License Agreement.2 Pursuant to such
Agreement, Staples was required to pay Properties 3% of net sales, or $5 million a quarter,
whichever was greater.

38.

Prior to the implementation of the reorganization, there were no subsidiaries that were involved in Staples’ actual U.S. operations, other
than Properties.3
2

Properties also owned Staples Trust Company, a Massachusetts business trust.
3
Two of the subsidiaries, Superstore and Staples East (previously Total Global Sourcing, Inc.), were non-operating companies. SOM Hagerstown owned Staples of Maryland LLC which
held the building and land connected to the Hagerstown Distribution Center. Staples Security Corp. was a Massachusetts investment company which held the securities in which Staples
invested. Kingfishers UK, The Business Depot, Ltd. [Canada],
together with five companies related to Staples’ Canadian operations, were connected to various international enterprises of

12a
39.

The basic functions of the merchandising, marketing, real estate, strategic planning, marketing
support, corporate communications, legal, financial and accounting departments were in Staples
prior to the reorganization.

40.

Following the implementation of the reorganization, Staples was organized as the parent company. Superstore and Staples C&C were wholly
owned subsidiaries of Staples and Staples East
was a wholly owned subsidiary of Superstore.

41.

During the Years in Issue, Staples, Superstore,
Staples East, and Staples C&C had common officers and directors.

42.

Following the implementation of the reorganization, Staples was engaged in the business of
providing a variety of managerial and administrative services for the benefit of its subsidiaries,
including strategic planning, marketing support,
corporate communications and legal, financial
and accounting services. Staples entered into
Administrative Service Agreements with Superstore, Staples C&C and Staples East in connection with the provision of these services. The
Administrative Service Agreements were executed on February 1, 1998.

43.

In order to implement the reorganization, on February 1, 1998, Staples made a contribution of
capital to Superstore including all “assets and liabilities relating to Staples’ functional areas of

Staples. Staples International, Inc., while a U.S. corporation, only
maintained investments in companies with international operations.

13a
business services, marketing/advertising, merchandising and Western U.S. retail operations,
(including real and personal property, leasehold
interests and improvements) intellectual property, contract rights and other intangibles, real
estate leases, leasehold improvements and related assets.”
44.

In order to implement the reorganization, Properties was merged into Superstore. Thus Superstore owned the rights in and the goodwill
associated with the use of certain valuable trademarks and other intellectual property, which it
licensed to Staples pursuant to a Trademarks License Agreement, dated February 1, 1998.

45.

In order to implement the reorganization, on February 1, 1998, Superstore entered into separate
Franchise Agreements with Staples East and
Staples C&C. Pursuant to these agreements, Superstore provided its franchise system to Staples
East and Staples C&C. The franchise system provided by Superstore included the use of certain
valuable trademarks and other intellectual property as well as site selection, building design,
equipment and signage, equipment layout plans,
marketing and merchandising practices and
strategies and other business policies and practices provided by Superstore’s merchandising,
marketing and real estate departments, which
are discussed below (collectively, the “Franchise
System”).

46.

The services provided by Staples pursuant to
the Administrative Services Agreement and the
Franchise System provided by Superstore were

14a
necessary for the operations of Staples East and
Staples C&C.
47.

The provision of the Franchise System and the
administrative services to Staples East and Staples C&C were sources of income for Superstore
and Staples.

48.

Superstore is a corporation organized under the
laws of Delaware. Superstore was incorporated in
1990, but it did not begin doing business until the
reorganization took place in 1998.

49.

Superstore’s principal place of business and commercial domicile are in Framingham, Massachusetts.

50.

Following the implementation of the reorganization, Superstore was engaged in the operation of
distribution centers and retail stores selling office supplies and equipment in various states, but
not Maryland. In addition, pursuant to the Franchise Agreements, Superstore provided its Franchise System to Staples East and Staples C&C.

51.

Following the implementation of the reorganization, Staples East engaged in the operation of distribution centers and retail stores selling office
supplies and equipment in various states, including Maryland. In order to implement the reorganization certain property was transferred from
Staples to Staples East and certain employees of
Staples began working for Staples East.4
4

Staples of Maryland LLC had two owners after the reorganization: Staples East had a 99% ownership interest and SOM
Hagerstown had a 1% ownership interest.

15a
52.

Staples C&C was incorporated in 1997, but it did
not begin doing business until the reorganization
took place in 1998.

53.

Staples C&C engaged in the operation of a catalog business selling office supplies and equipment, a contract stationer business and large
customer sales and engaged in business in Maryland. In order to implement the reorganization
certain property was transferred from Staples to
Staples C&C and certain employees of Staples
began working for Staples C&C.

THE OPERATIONS OF SUPERSTORE DURING
THE YEARS IN ISSUE
54.

During the Years in Issue, Superstore owned real
property, buildings and depreciable assets with
book values of the following amounts: $153,996,666
for fiscal year ended January 30, 1999; $169,766,957
for fiscal year ended January 29, 2000; $174,898,551
for fiscal year ended February 3, 2001; $181,786,909
for fiscal year ended February 2, 2002; $182,180,923
for fiscal year ended February 1, 2003; and
$173,556,964 for fiscal year ended January 31,
2004.

55.

Superstore had no real or tangible personal property in Maryland.

56.

During the Years in Issue Superstore had over
7,000 employees. Superstore paid salaries, wages
and officer compensation of the following amounts
during the Years in Issue: $103,526,655 for fiscal
year ended January 30, 1999; $158,909,481 for
fiscal year ended January 29, 2000; $167,363,460

16a
for fiscal year ended February 3, 2001; $173,396,537
for fiscal year ended February 2, 2002; $191,210,866
for fiscal year ended February 1, 2003; and
$222,422,635 for fiscal year ended January 31,
2004.
57.

Superstore was an operating company during the
Years in Issue.

58.

Superstore’s operations consisted primarily of
providing its Franchise System to its own stores,
Staples East and Staples C&C and operating its
own retail stores and distribution centers.
Superstore’s Franchise System

59.

A major part of Superstore’s business was the
provision of its Franchise System, both to its own
stores and to the operations of Staples East and
Staples C&C.

60.

Employees in Superstore’s merchandising, marketing and real estate departments provided Superstore’s Franchise System to the operations of
Superstore, Staples East and Staples C&C.

61.

As a part of providing its Franchise System, Superstore owned and actively managed certain
valuable trademarks and other intellectual property which it acquired in the reorganization. During the Years in Issue, Superstore filed for 67
additional trademarks. The new trademarks filed
for were the result of work done by Superstore
employees in the merchandising, marketing and
real estate departments.

17a
Superstore’s Merchandising Department
62.

Following the implementation of the reorganization Superstore’s merchandising department
(“Merchandising”) handled vendor negotiations
and product selections for Superstore, Staples
East and Staples C&C. Merchandising was also
responsible for the research and development of
new products sold by Superstore, Staples East
and Staples C&C.

63.

The negotiations of Merchandising allowed Superstore, Staples East and Staples C&C to generally price products 30% to 70% below the
manufacturer’s suggested list prices.

64.

Merchandising also continually compared the
pricing of Superstore, Staples East and Staples
C&C against that of competitors to ensure competitiveness in the marketplace.

65.

Merchandising developed product promotions for
Superstore, Staples East and Staples C&C.

66.

As part of the Franchise System, Superstore employees in Merchandising assisted Staples East
and Staples C&C. Although the majority of this
assistance was performed where the employees
were based, the employees did make some visits to
Maryland.
Superstore’s Marketing Department

67.

Following the implementation of the reorganization, Superstore’s marketing department (“Marketing”) administered the rewards program
and maintained the customer information for

18a
Superstore, Staples East and Staples C&C. Marketing developed the marketing schemes, such as
logos, colors, marketing campaigns, and product
promotions for Superstore, Staples East and Staples C&C.
68.

Marketing selected a broad base of media to use
in advertising for Superstore, Staples East and
Staples C&C, including radio, television, newspaper circulars, print and internet. The mix of media was based upon market, competitive and cost
factors.

69.

As part of the Franchise System, Superstore employees in Marketing assisted Staples East and
Staples C&C. Although the majority of this assistance was performed where the employees were
based, the employees did make some visits to
Maryland.
Superstore’s Real Estate Department

70.

Following the implementation of the reorganization, Superstore’s real estate department (“Real
Estate”) included site selection, new construction
and remodeling functions.

71.

Real Estate was responsible for the retail store
and distribution concept for Superstore, Staples
East and Staples C&C. The concept entailed determining the appropriate real estate location,
constructing the store or distribution center,
providing the initial inventory and operations
and ensuring the proper plan-a-gram was utilized. A plan-a-gram was the innovative model for

19a
assuring the franchises had a similar store layout.
72.

As part of the Franchise System, Superstore employees in Real Estate assisted Staples East and
Staples C&C. Although the majority of this assistance was performed where the employees were
based, the employees did make some visits to
Maryland.

Superstore’s Retail Operations
73. A part of Superstore’s business was the operation
of its own retail stores and distribution centers.
74. Superstore operated numerous retail stores, none
of which were in Maryland.
75. Superstore also operated multiple distribution
centers, all of which were outside of Maryland.
Franchise Agreements
76.

The provision of Superstore’s Franchise System
to Staples East and Staples C&C was provided
for in Franchise Agreements.

77.

On February 1, 1998, Superstore entered into
Franchise Agreements with Staples East and
Staples C&C.

78.

The Franchise Agreements required the employees of Superstore to provide the Franchise System to Staples East and Staples C&C.

79.

Staples East paid a franchise fee of 4.5% of net
monthly sales to Superstore for the Franchise

20a
System. There was not a separate fee for the components of the Franchise System.
80.

For the Years in Issue, Superstore received franchise fees from Staples East in the following
amounts: $143,353,141 for fiscal year ended January 30, 1999; $175,598,798 for fiscal year ended
January 29, 2000; $206,836,147 for fiscal year
ended February 3, 2001; $203,374,471 for fiscal
year ended February 2, 2002; $209,167,802
for fiscal year ended February 1, 2003; and
$223,581,930 for fiscal year ended January 31,
2004.

81.

Staples C&C paid a franchise fee of 3.5% of net
monthly sales to Superstore for the Franchise
System. There was not a separate fee for the components of the Franchise System.

82.

For the Years in Issue, Superstore received franchise fees from Staples C&C in the following
amounts: $43,034,379 for fiscal year ended January 30, 1999; $50,780,115 for fiscal year ended
January 29, 2000; $57,775,055 for fiscal year
ended February 3, 2001; $70,815,703 for fiscal
year ended February 2, 2002; $78,509,335 for fiscal year ended February 1, 2003; and $86,634,503
for fiscal year ended January 31, 2004.

83.

The franchise fees were a portion of Superstore’s
income for each of the Years at Issue. During the
fiscal year ended January 30, 1999, the total franchise fee receipts were 16% of total receipts, or
$186,387,520 of $1,155,423,632. During the fiscal
year ended January 29, 2000, the total franchise
fee receipts were 18% of total receipts, or
$226,378,913 of $1,244,796,656. During the fiscal

21a
year ended February 3, 2001, the total franchise fee receipts were 16% of total receipts, or
$264,611,202 of $1,674,302,476. During the fiscal
year ended February 2, 2002, the total franchise fee receipts were 16% of total receipts, or
$274,190,174 of $1,736,657,634. During the fiscal
year ended February 1, 2003, the total franchise fee receipts were 17% of total receipts, or
$287,677,137 of $1,662,440,130. During the fiscal
year ended January 31, 2004, the total franchise
fee receipts were 17% of total receipts, or
$310,216,433 of $1,838,822,092.
THE OPERATIONS OF STAPLES DURING THE
YEARS IN ISSUE
84.

Following the implementation of the reorganization, Staples provided Superstore, Staples East
and Staples C&C with numerous services, including the cash management system.

85.

Staples owned real property, buildings and depreciable assets with book values of the following
amounts during the Years in Issue: $111,109,379
for fiscal year ended January 30, 1999; $139,086,278
for fiscal year ended January 29, 2000; $155,423,395
for fiscal year ended February 3, 2001; $160,679,335
for fiscal year ended February 2, 2002; $140,348,678
for fiscal year ended February 1, 2003; and
$129,966,389 for fiscal year ended January 31,
2004.

86.

Following the implementation of the reorganization, Staples had no real or tangible personal
property in Maryland.

22a
87.

Staples paid salaries, wages and officer compensation of the following amounts during the Years
in Issue: $54,888,807 for fiscal year ended January 30, 1999; $59,413,348 for fiscal year ended
January 29, 2000; $76,435,308 for fiscal year
ended February 3, 2001; $71,750,689 for fiscal
year ended February 2, 2002; $89,835,715 for fiscal year ended February 1, 2003; and $105,702,567
for fiscal year ended January 31, 2004.

88.

Staples was an operating company during the
Years in Issue.

Administrative Service Agreements
89.

In order to implement the reorganization, on February 1, 1998, Staples entered into Administrative Service Agreements with Superstore, Staples
East and Staples C&C regarding the services
provided.

90.

Superstore, Staples East and Staples C&C paid a
fee to Staples for the services provided.

Staples’ Treasury Department and Cash Management System
91.

The Treasury Department, among other things,
was responsible for the cash management system
and credit support functions. The Treasury Department had been responsible for the cash management system and credit support functions of
Staples prior to the reorganization.

23a
92.

As a part of the cash management system provided, Staples utilized a cash pooling arrangement with Superstore, Staples East and Staples
C&C.

93.

Under the cash pooling arrangement, if one company had a negative account balance, it would
borrow funds from Staples. Conversely, if one
company had excess cash, it would lend such
funds to Staples.

94.

At the end of each day, Staples would invest any
excess funds on behalf of Superstore, Staples
East and Staples C&C. (If additional funds were
needed, Staples would borrow such funds.)

95.

Due to the fluctuating net account balances, Staples executed Demand Notes in the amounts of
$75,000,000, $200,000,000 and $100,000,000 in
favor of Superstore, Staples East and Staples
C&C, respectively. The Demand Notes had no
collateral or security provisions.

96.

The intercompany balances were tracked on a
daily basis. At the end of every month, the cash
flows were reconciled and interest was either
paid by or charged by Staples to each of the subsidiaries.

97.

Staples East paid net interest to Staples in the
following amounts: $9,098,180 for fiscal year
ended January 30, 1999; $8,655,235 for fiscal
year ended January 29, 2000; $13,497,532 for fiscal year ended February 3, 2001; and $13,720,492
for fiscal year ended February 2, 2002. Staples
paid net interest to Staples East in the following
amounts: $28,202 for fiscal year ended February

24a
1, 2003; and $4,828,781 for fiscal year ended January 31, 2004[.]
98.

Staples paid net interest to Staples C&C in the
following amounts: $842,979 for fiscal year ended
January 30, 1999; $118,063 for fiscal year ended
January 29, 2000; and $2,954,863 for fiscal year
ended February 3, 2001. Staples C&C paid net
interest to Staples in the following amounts:
$1,414,407 for fiscal year ended February 2, 2002;
$539,637 for fiscal year ended February 1, 2003;
and $353,363 for fiscal year ended January 31,
2004[.]

99.

Staples also managed all credit needs with third
parties on behalf of Superstore, Staples East and
Staples C&C.

100. In order to fund new store openings and recurring operating expenses, Staples entered into a
revolving credit facility with a syndicate of banks
in November 1997, which was effective through
2002. In 2002, the terms of the facility were renegotiated and the new facility was effective
through 2006.
101. From its account, Staples paid all obligations of
Superstore, Staples East and Staples C&C on behalf of each subsidiary, including expenses for
marketing materials, delivery truck leases and
payroll.
102. Staples had no personal or other liability for the
debts of Superstore, Staples East or Staples C&C.
103. The cash management system allowed for efficient and effective management of the funds and

25a
reduced fees payable to third parties (such as
banks).
Respectfully submitted,
COMPTROLLER OF
THE TREASURY
By one of his attorneys,

STAPLES, INC. and
STAPLES THE OFFICE
SUPERSTORE, INC.
By one of its attorneys,

/s/ Brian L. Oliner
/s/ Roberta Moseley Nero (BLO)
Brian L. Oliner
Craig B. Fields
John K. Barry
Roberta Moseley Nero
Michael J. Salem
MORRISON &
Assistant Attorneys
FOERSTER LLP
General
1290 Avenue of
Goldstein Treasury
the Americas
Office Building
New York, New York
80 Calvert Street,
10104-0012
Room 303
Telephone:
P.O. Box 466
(212) 468-8000
Anapolis [sic], MD
Admitted Pro Hac Vice
21404-0466
Harry D. Shapiro
Telephone:
SAUL EWING LLP
(410) 260-7808
Lockwood Place
500 East Pratt Street
Baltimore, MD 21202
Telephone:
(410) 332-8658
Attorneys for Respondent
Date: August 22, 2011
938167

Attorneys for Petitioners
Date: August 22, 2011

